TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Penalty Cases for Failure to Disclose
                          Reportable Transactions Were
                           Not Always Fully Developed



                                       December 10, 2010

                              Reference Number: 2011-30-004




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


PENALTY CASES FOR FAILURE TO                          in most cases, the §6707A penalty was
DISCLOSE REPORTABLE                                   substantially higher than additional tax
TRANSACTIONS WERE NOT ALWAYS                          assessments taxpayers received from the audit
FULLY DEVELOPED                                       of underlying tax returns. On July 7, 2009, at
                                                      the request of Congress, the IRS agreed to
                                                      suspend collection enforcement actions.
Highlights                                            However, this did not preclude the issuance of
                                                      notices of assessment that are required by law
                                                      and adjustment notices which inform the
Final Report issued on December 10,                   taxpayer of any account activity. In addition,
2010                                                  taxpayers continued to receive balance due and
                                                      final notices of intent to levy and pay §6707A
Highlights of Reference Number: 2011-30-004           penalties.
to the Internal Revenue Service Deputy
Commissioner for Services and Enforcement.            TIGTA reviewed 114 assessed §6707A
                                                      penalties and determined many §6707A penalty
IMPACT ON TAXPAYERS                                   files were incomplete or did not contain
In October 2004, the Internal Revenue Code            sufficient audit evidence. TIGTA also identified
Section 6707A (§6707A) penalty was enacted            instances in which the coordination between the
for failure to disclose a reportable transaction,     IRS’s Office of Tax Shelter Analysis and other
with the intent of helping to detect, deter, and      functions needs improvement. In addition,
shut down abusive tax shelter activity. However,      although the Office of Tax Shelter Analysis is
the procedures for documenting and assessing          responsible for reviewing, analyzing,
the penalty were not sufficient or formalized, and    disseminating, and reporting on thousands of
cases are not fully developed. These conditions       Reportable Transaction Disclosure Statements
increase the risk that taxpayers will not receive     (Form 8886) each year, it does not have formal
consistent and fair treatment.                        processing procedures.

WHY TIGTA DID THE AUDIT                               WHAT TIGTA RECOMMENDED

This audit was initiated to evaluate the Internal     TIGTA made several recommendations to fully
Revenue Service’s (IRS) effectiveness in              develop, document, and properly process
identifying, developing, and applying the §6707A      §6707A penalties.
penalty. In addition, the Senate Finance              In their response to the report, IRS officials
Committee has concerns about whether the              agreed with the recommendations and plan to
penalty amounts are fair when compared to the         take appropriate corrective actions.
tax benefit taxpayers receive from participation
in abusive transactions.
WHAT TIGTA FOUND
The §6707A penalty for failure to disclose a
non-listed reportable transaction is $10,000 if
the taxpayer is an individual and $50,000 for any
other business or entity. If the violation involves
a listed transaction, the penalty is $100,000 for
individuals and $200,000 for any other business
or entity.
The §6707A penalty is a stand-alone penalty
and does not require an associated income tax
examination; therefore, it applies regardless of
whether the reportable transaction results in an
understatement of tax. TIGTA determined that,
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 10, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Penalty Cases for Failure to Disclose Reportable
                             Transactions Were Not Always Fully Developed (Audit #201030007)

 This report presents the results of our review to evaluate the Internal Revenue Service’s
 effectiveness in identifying, developing, and applying Internal Revenue Code Section 6707A
 penalties. This audit was part of our Fiscal Year 2010 Annual Audit Plan and addresses the
 major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix XI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                   Penalty Cases for Failure to Disclose Reportable
                                   Transactions Were Not Always Fully Developed




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Code Section 6707A Penalty Was
          Substantially Higher Than Many Taxpayers’ Additional
          Tax Assessments ........................................................................................... Page 3
          Processing of Penalties Continued After Collection
          Enforcement Actions Were Suspended ........................................................ Page 7
          Many Internal Revenue Code Section 6707A Penalty Files
          Were Incomplete or Did Not Contain Sufficient Evidence ......................... Page 9
                    Recommendation 1:........................................................ Page 15

                    Recommendation 2:........................................................ Page 16

          Some Processes That Require Coordination Between the
          Office of Tax Shelter Analysis and Other Functions Need
          Improvement ................................................................................................. Page 16
                    Recommendations 3 and 4: .............................................. Page 19

          The Office of Tax Shelter Analysis Does Not Have Formal
          Processing Procedures for Form 8886 .......................................................... Page 19
                    Recommendation 5:........................................................ Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 21
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Outcome Measures............................................................... Page 26
          Appendix V – Individual Master File and Business Master File Notices
          Sent to Taxpayers After Suspension of Collection Enforcement Actions .... Page 27
                          Penalty Cases for Failure to Disclose Reportable
                          Transactions Were Not Always Fully Developed



Appendix VI – Second Notice – Balance Due (CP 503) .............................. Page 29
Appendix VII – Final Notice – Balance Due (CP 504) ................................ Page 30
Appendix VIII – Final Notice of Intent to Levy and Notice of
Your Right to a Hearing (CP 90) .................................................................. Page 31
Appendix IX – Internal Revenue Service’s Record of Listed
Transactions .................................................................................................. Page 32
Appendix X – Glossary of Terms ................................................................. Page 35
Appendix XI – Management’s Response to the Draft Report ...................... Page 39
         Penalty Cases for Failure to Disclose Reportable
         Transactions Were Not Always Fully Developed




                 Abbreviations

BMF        Business Master File
CY         Calendar Year
IMF        Individual Master File
I.R.C.     Internal Revenue Code
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
LMSB       Large and Mid-Size Business
OTSA       Office of Tax Shelter Analysis
SB/SE      Small Business/Self-Employed
TE/GE      Tax Exempt and Government Entities
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed




                                              Background

Penalties encourage voluntary compliance by demonstrating the fairness of the tax system to
compliant taxpayers and increasing the cost of noncompliance. Penalties impose tangible
economic consequences on taxpayers who claim or promote abusive transactions and, thereby,
should deter such activity. The Internal Revenue Service’s (IRS) administration of penalties will
largely determine whether an economic consequence is effectively imposed and sufficient to
deter future abuses.
In August 2004, the IRS reissued Policy Statement 20-1 as part of an IRS-wide effort to
rebalance enforcement and address the increasing proliferation of abusive tax transactions1 and
shelters. The reissued statement provides that accuracy-related or fraud penalties will be
developed in all cases where an underpayment of tax is attributable to a listed transaction. A
listed transaction is a transaction that is the same as, or substantially similar to, one of the types
of transactions that the IRS has determined to be a tax avoidance transaction (see Appendix IX
for the IRS’s published record of listed transactions). The reissued statement also says that
revenue agents will consider the applicability of penalties to non-listed but potentially abusive
transactions and will impose penalties on promoters and preparers involved in abusive tax
transaction activities. A non-listed transaction is a potentially abusive, reportable transaction
which is not included on the IRS’s published record of listed transactions.
The American Jobs Creation Act of 20042 added Internal
Revenue Code (I.R.C.) Section 6707A (hereafter
referred to as §6707A) to provide a monetary penalty for        For failure to disclose a listed
the failure to include on any return or statement any          transaction,  the §6707A penalty
                                                         3       is $100,000 for an individual
information required to be disclosed under I.R.C. §6011           and $200,000 for any other
with respect to a reportable transaction. The §6707A                  business or entity.
penalty applies to tax returns and statements with due
dates after October 22, 2004. For failure to disclose a
non-listed reportable transaction, the §6707A penalty is $10,000 if the taxpayer is an individual
and $50,000 for any other business or entity. If the violation involves a listed transaction, the
penalty is $100,000 for individuals and $200,000 for any other business or entity. The §6707A
penalty can be applied in addition to any other penalty imposed and applies regardless of
whether the transaction ultimately results in an understatement of tax. Unlike most other
penalties, it contains no reasonable cause exception. However, the IRS Commissioner may

1
  See Appendix X for a glossary of terms.
2
  Pub. L. No. 108-357, 118 Stat. 1418.
3
  I.R.C. §6011 requires a taxpayer that has participated in a reportable transaction to disclose certain information
with respect to the reportable transaction with his or her tax return.
                                                                                                                Page 1
                             Penalty Cases for Failure to Disclose Reportable
                             Transactions Were Not Always Fully Developed



rescind the penalty for reportable non-listed transactions to
promote compliance with the tax laws and effective                              The §6707A penalty
administration. The penalty cannot be rescinded for listed                    cannot be rescinded for
transactions; only non-listed transactions can be rescinded.                    listed transactions.
I.R.C. regulations generally require that a taxpayer inform the
IRS of participation in a reportable transaction by attaching a Reportable Transaction Disclosure
Statement (Form 8886) to his or her tax return or statement for each year of participation in the
transaction. In addition, a duplicate Form 8886 must be sent to the Large and Mid-Size Business
(LMSB) Division’s4 Office of Tax Shelter Analysis (OTSA) the first time the taxpayer files
Form 8886.
IRS field examiners in the Small Business/Self-Employed (SB/SE), LMSB, and Tax Exempt and
Government Entities (TE/GE) Divisions have completed approximately 742 examinations for the
§6707A penalty from inception of the penalty on October 23, 2004, through December 31, 2009.
The IRS has assessed 517 penalties from the 742 examinations which account for $73,856,500 in
potential penalty revenue.
On September 27, 2010, H.R. 5297 – The Small Business Jobs Act of 2010 – was signed into
law, which included revisions to the §6707A penalty. Specifically, the penalty amount with
respect to any reportable transaction shall be 75 percent of the decrease in tax shown on the
return as a result of the transaction (or which would have resulted from the transaction with
respect to Federal tax purposes). The maximum penalty amount with respect to any reportable
transaction shall not exceed $200,000 in the case of a listed transaction ($100,000 in the case of a
natural person) or $50,000 in the case of any other reportable transaction ($10,000 in the case of
a natural person). The minimum penalty amount shall not be less than $10,000 ($5,000 in the
case of a natural person) with respect to any transaction. The effective date of this amendment
applies to penalties assessed after December 31, 2006.
This review was performed at the LMSB, SB/SE, and TE/GE Divisions Examination function,
Office of Appeals, and Office of Chief Counsel in Washington, D.C.; and the LMSB Division
Pre-Filing and Technical Guidance function in Washington, D.C., and Ogden, Utah, during the
period October 2009 through June 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.


4
 Effective October 1, 2010, the IRS’s LMSB Division’s name was changed to the Large Business and International
Division.
                                                                                                       Page 2
                                            Penalty Cases for Failure to Disclose Reportable
                                            Transactions Were Not Always Fully Developed




                                                   Results of Review

The Internal Revenue Code Section 6707A Penalty Was Substantially
Higher Than Many Taxpayers’ Additional Tax Assessments
In October 2004, Congress enacted the §6707A penalty for failure to disclose a reportable
transaction, with the intent of helping to detect, deter, and shut down abusive tax shelter activity.
At the time the penalty was enacted, listed tax shelters involving hundreds of millions of dollars
were prevalent and the size of these transactions influenced the size of the disclosure penalty.
The penalty resulted in substantially higher disclosure rates to the IRS, which helped to identify
and shut down many abusive transactions. In Calendar Year (CY) 2005, the OTSA received
approximately 217,000 Forms 8886 compared to approximately 53,000 in CY 2008. Figure 1
shows the activity of open and closed examinations on the §6707A penalty from
October 23, 2004, through December 31, 2009.
                   Figure 1: Open and Closed §6707A Penalty Examinations

                                            Activity for the §6707A Penalty Examinations from
                                                          10/23/04 through 12/31/09
                                                                                      Closed 6707A
                                          600
                                                                                      Examinations
                      Number of Penalty




                                          500
                        Examinations




                                          400
                                          300
                                                                                            Open 6707A
                                          200
                                                                                           Examinations
                                          100
                                           0
                                                 2005       2006        2007       2008         2009
                                                           Calendar (Opened/Closed) Year

                    Source: Our analysis of the IRS Individual Master File (IMF) and Business
                    Master File (BMF) systems, Examination Return Control System, and Audit
                    Information Management System as of December 31, 2009.

From CYs 2005 through 2008, the number of penalty examinations opened each CY increased
and then declined significantly in CY 2009. As of December 31, 2009, there were
120 open and 742 closed5 examinations for the §6707A penalty.


5
    This is the sum total of closed §6707A examinations for CYs 2005–2009.
                                                                                                          Page 3
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed



In 2004, the IRS determined that some transactions, including certain Section 412(i) Qualified
Retirement Plans6 and Abusive Roth Individual Retirement Arrangement Transactions7 that had
been adopted by some small businesses were listed transactions and thus subject to disclosure.
Congress became concerned when it was brought to their attention that §6707A penalties were
significantly larger than the tax benefits small business owners received from investment
transactions which they thought were legitimate benefits plans. Some of these business owners
were not advised by the parties selling the benefits packages that the plans had been identified by
the IRS as abusive transactions. They did not learn of this status until they were examined by the
IRS and assessed substantial penalties for failing to disclose the transactions on their tax returns.
Many §6707A penalties already assessed fall under these categories of transactions and it is
likely that more penalties will result from the open §6707A examinations.
The §6707A penalty is a stand-alone penalty and does not require an associated income tax
examination; therefore, it applies regardless of whether the reportable transaction results in an
understatement of tax. There were 270 §6707A penalties assessed from October 23, 2004,
through June 30, 2009.8 Figure 2 compares any additional or potential additional tax
assessments9 on the underlying tax returns with the 270 penalty amounts. We attempted to
determine the specific tax benefit taxpayers received from their participation in the abusive
transactions; however, we could not determine the precise tax benefit because additional tax
assessments resulting from the audit of the underlying tax returns could include other tax return
issues and/or other types of penalties. The additional assessments could involve issues unrelated
to the §6707A transactions, so our comparison conservatively10 compares tax benefits received
with the §6707A penalty assessed.




6
  Revenue Ruling 2004-20, 2004-10, Internal Revenue Bulletin 546, Mar 8, 2004.
7
  Notice 2004-8, 2004-4, Internal Revenue Bulletin 333, Jan 26, 2004.
8
  Our audit field work began in October 2009. Because the IRS temporarily suspended collection enforcement
actions on July 7, 2009, we analyzed penalties assessed through June 30, 2009.
9
  Additional or potential additional tax assessments were on the related underlying tax returns of the 270 penalties
reviewed. Potential assessments were usually those pending litigation in tax court. Both amounts were identified
through the IRS’s Integrated Data Retrieval System.
10
   In other words, the additional tax assessment shown is not limited to the §6707A transaction. The assessment
based only on participation in the §6707A transaction might actually be less.
                                                                                                              Page 4
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed



      Figure 2: §6707A Penalties Compared With Additional Tax Assessments
                                  Total                                                                 Percentage
                                 Number         §6707A                                                   Variance
                                    of          Penalty    Additional Tax                                Against
         Category                Penalties      Amount      Assessment11         Difference              Penalty
 Cases With No Additional
 Tax Assessment                      145   $26,064,000            $ -           $26,064,000                   100%
 Cases With Additional Tax
 Assessment Less Than
 Penalty                              82    $9,950,000        $3,641,161         $6,308,839                    63%
 Cases With Additional Tax
 Assessment Greater Than
 Penalty                              43    $4,377,000      $123,162,122       ($118,785,122)              -2,714%
Source: Our analysis of 270 assessed §6707A penalties between October 23, 2004, and June 30, 2009.

Our analysis showed that 145 penalties had no additional or potential additional tax assessments
but had §6707A penalties of more than $26 million. There were also 82 penalties where §6707A
assessments were 63 percent higher than total additional or potential additional tax assessments
($9.9 million in penalties compared with $3.6 million in additional assessments). In contrast,
there were only 43 penalties where total additional or potential additional assessments were
higher than §6707A penalties.
To obtain a better understanding of how these penalties affected businesses and owners, we
selected a sample of assessed §6707A penalties. We focused our sample selection on penalties
with multiple tax years and/or related entities. For example, an S Corporation may have received
a $200,000 penalty for 2 tax years ($400,000) and 2 of the owners12 may have received a
$100,000 penalty for 2 tax years ($400,000), resulting in a total of 6 penalties in the amount of
$800,000 on the same reportable transaction. After grouping the population of assessed §6707A
penalties by multiple tax years and/or related entities, we selected all the grouped cases, along
with a random sample of individual penalties that did not involve multiple tax years and/or
related entities. Overall, we reviewed 114 (75 percent) of the 153 assessed, reviewable13 §6707A
penalties.
Although we did not base our sample selection upon the type of abusive transaction,
104 (91 percent) of the 114 sampled penalties were under Section 412(i) Qualified Retirement
Plans and Abusive Roth Individual Retirement Arrangement Transactions. As a result of



11
   Additional tax assessments could include assessments on other types of tax issues and/or other types of penalties.
12
   Owners of an S Corporation would receive the §6707A penalty if they did not report the transaction because
income passes through to their individual tax returns.
13
   We chose our sample from 153 of 270 assessed penalties as of June 30, 2009, after we determined that 90 of the
270 penalties were not reviewable due to a lack of documentation in the case files, and 27 penalties were not
reviewable because the cases files were never received.
                                                                                                              Page 5
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed



grouping the 114 penalties together, we identified 42 unique14 cases. Figure 3 compares any
additional or potential additional tax assessments15 on the underlying tax returns with the
114 penalty amounts.
     Figure 3: §6707A Penalty Assessments Versus Additional Tax Assessments

                                                                                                       Percent
                                                        §6707A         Additional                      Variance
                               Unique                   Penalty           Tax                           against
     Category                  Cases     Penalties      Amount        Assessment16      Difference     Penalty
     Cases With No
     Additional Tax
     Assessment                  14          18         $3,220,000                 -     $3,220,000        100%
     Cases With Additional
     Tax Assessment Less
     than Penalty                21          80        $11,850,000       $3,301,905      $8,548,095         72%
     Cases With Additional
     Tax Assessment
     Greater than Penalty         7          16         $1,861,000       $4,239,961    ($2,378,961)      (128%)

      Total                     42         114     $16,931,000      $7,541,866     $9,389,134        55%
     Source: Our analysis of 114 assessed §6707A penalties between October 23, 2004, and June 30, 2009.

Our analysis showed that 14 (33 percent) of 42 unique cases had no additional or potential
additional tax assessments but had §6707A penalties totaling more than $3.2 million. There
were 21 (50 percent) of 42 unique cases where total §6707A penalties assessed were 72 percent
higher ($11.8 million versus $3.3 million) than total additional or potential additional tax
assessments. In contrast, there were only 7 (17 percent) of the 42 unique cases where total
additional or potential additional assessments were higher than §6707A penalties. For all
42 unique cases combined, §6707A penalties were 55 percent ($16.9 million versus $7.5 million)
higher than additional or potential additional tax assessments which resulted from audits of the
underlying tax returns.
Although the penalty was frequently more than the tax assessments received by the small
businesses, it does not appear the penalty was disproportionally assessed on them. We compared
the business operating division codes for open and closed §6707A penalty cases with the total



14
   Unique cases are related to a single reportable transaction that may have involved multiple penalties, such as the
S Corporation example we cited previously in the report narrative.
15
   Additional or potential additional tax assessments were on the related underlying tax returns of the 114 penalties
reviewed. Potential assessments were usually those pending litigation in tax court. Both amounts were identified
through the IRS Integrated Data Retrieval System.
16
   Additional tax assessments could include assessments on other types of tax issues and/or other types of penalties.
                                                                                                              Page 6
                           Penalty Cases for Failure to Disclose Reportable
                           Transactions Were Not Always Fully Developed



number of SB/SE and LMSB Division taxpayers.17 While the majority (96 percent) of the
§6707A open and closed examinations were SB/SE Division taxpayers, there are a
proportionally higher number of SB/SE Division taxpayers in the overall population of business
taxpayers (more than 99 percent).

Processing of Penalties Continued After Collection Enforcement
Actions Were Suspended
In June 2009, the Senate Finance Committee requested the IRS suspend “collection efforts” on
§6707A liabilities in cases where the annual tax benefits resulting from listed transactions were
less than $100,000 for individuals and $200,000 for other cases. This suspension would give
temporary relief to affected taxpayers and allow Congress the necessary time to assess the
situation and modify the law so that penalty amounts would be more in line with tax benefits
taxpayers receive.
As of July 7, 2009, the IRS agreed to temporarily suspend “collection enforcement actions”
on these liabilities through September 30, 2009. The IRS informed us that suspension of
“collection enforcement actions” means no levy or seizure action will occur. Therefore, the
suspension did not preclude the issuance of Notices of Assessment, which are required by law,
and adjustment notices, which inform the taxpayer of any account activity. The IRS also made it
clear that although collection enforcement actions would stop, examinations and assessments on
§6707A issues would continue. From the time collection enforcement actions were stopped
through December 31, 2009, the IRS assessed 227 additional §6707A penalties in the amount of
$31,957,000. The IRS has extended the suspension of collection enforcement actions every
90 days to allow Congress the time it needs to make legislative changes. On January 12, 2010,
the IRS agreed to suspend collection enforcement actions on all §6707A penalties and no longer
limited suspension to cases where annual tax benefits thresholds were met.
Our analysis reflects the following actions continued after the IRS suspended collection
enforcement actions:
     •   Collection notices were sent.
     •   Tax liens were filed.
     •   Interest continued to accrue on penalties.
     •   Taxpayers made payments on §6707A penalties.
     •   The Office of Appeals settled penalties.


17
  Total number of SB/SE and LMSB Division taxpayers was obtained from the IRS’s BMF and IMF systems using
Tax Year 2008 data as of April 30, 2010.
                                                                                                  Page 7
                                Penalty Cases for Failure to Disclose Reportable
                                Transactions Were Not Always Fully Developed



Collection notices were sent
From the population of all taxpayers with assessed §6707A penalties as of December 31, 2009,
we identified 119 collection notices sent to 97 taxpayers18 after collection enforcement actions
were stopped on July 7, 2009. Types of collection notices sent to these taxpayers include
Notices of Civil Penalty assessments, Adjustment Notices, Balance Due Notices, and Final
Notices of Intent to Levy (see Appendix V for a full list of notices sent and Appendices VI to
VIII for examples of the notices). Although notices of assessment are required by law, final
notices with intent to levy are required by law only if the IRS intends to levy the taxpayer. The
language used in these notices informs the taxpayer he or she owes money and it needs to be paid
by a specific date or interest will continue to be charged on the balance and collection actions
will continue. In addition, 35 (29 percent) of the 119 notices were 4th Balance Due Notices,
which have wording that the IRS has intent to levy any State tax refunds. Seven (6 percent) of
the 119 notices were Final Notices With Intent to Levy and Notice of Rights to a Hearing.
Fifteen (36 percent) of these 42 notices were issued after December 31, 2009.
IRS management informed us that issuance of a notice is not a violation of the suspension of
“collection enforcement actions,” and notices are issued to keep the taxpayer apprised of any
activity that may have affected his or her case. IRS management advised us they tried to stop the
issuance of the final notice and demand, offering the taxpayer his or her due process rights after
they realized these notices were still being sent. IRS management advised us the problem was
corrected soon after the suspension period began. However, our analysis showed that some of
Final Notices With Intent to Levy and Notice of Rights to a Hearing were issued in
October 2009 and others were issued in February 2010.

Tax liens were filed
As of December 31, 2009, we identified 13 tax liens filed on taxpayers with §6707A liabilities.
Until taxpayers complained about these liens being filed, the Senate Finance Committee was
unaware the IRS had continued this collection action. The IRS stated that the suspension of
“enforced collection actions” refers to levy and seizure actions, but not liens. The IRS continued
to file tax liens in those instances where it felt the Federal Government’s interest needed to be
protected. At the request of the Senate Finance Committee, the IRS agreed to stop filing liens on
these taxpayers after December 22, 2009, but the liens already filed would not be released.

Interest continued to accrue on penalties
Although collection enforcement actions were stopped, the §6707A liabilities previously
assessed, as well as some new assessments, continued to accrue interest. We identified
115 penalties that were assessed interest after July 7, 2009. The amount of interest assessed on
these accounts after July 7, 2009, through April 19, 2010, was approximately $143,000. IRS

18
     Some taxpayers received more than one collection notice.
                                                                                           Page 8
                              Penalty Cases for Failure to Disclose Reportable
                              Transactions Were Not Always Fully Developed



management advised us they were not aware of any plans to suspend the interest accrual during
the suspension of collection enforcement actions.

Taxpayers made payments on §6707A penalties
Taxpayers also continued to make payments on §6707A liabilities after collection enforcement
actions were suspended. We identified 14 subsequent payments19 in the amount of $1,429,403
for §6707A liabilities as of April 30, 2010. *****************1*********************
********. However, the majority of payments appear to have been initiated by taxpayers
themselves.

The Office of Appeals settled §6707A penalties
Although the IRS Commissioner may not rescind §6707A penalties for listed transactions, the
IRS Office of Appeals (Appeals) has the authority to settle or reduce penalties (in whole or in
part) for both non-listed and listed transactions. Between October 23, 2004, and
December 31, 2009, Appeals offered and taxpayers accepted settlements for 79 (15 percent) of
the 517 §6707A penalties, resulting in a total reduction of $3,971,000 in penalty amounts. These
settlements were based on “hazards of litigation,” which is the risk that a court might decide the
IRS had insufficient factual basis to impose the penalty.

Many Internal Revenue Code Section 6707A Penalty Files Were
Incomplete or Did Not Contain Sufficient Evidence
Unlike other civil penalties, the §6707A penalty has special processing procedures. The IRS
developed these special procedures to enable them to expedite the imposition and potential
rescission20 of the §6707A penalty and facilitate centralized tracking of rescission requests.
Interim processing procedures (procedures) require developing the §6707A penalty case file at
the beginning of the examination as a separate file and assessing the penalty independently from
any underlying tax liability or other penalties. Also, because the statute provides no reasonable
cause or other good faith exception to the penalty, field examiners (examiners) must fully
develop the relevant facts of the case and include all pertinent documents or other evidence that
demonstrates the transaction was a reportable transaction.




19
   Subsequent payments are payments made after the initial tax assessment. These 14 payments were on §6707A
penalties assessed from October 23, 2004, though June 30, 2009.
20
   §6707A allows the IRS Commissioner to rescind the imposition of the penalty with respect to reportable
non-listed transactions if it would “promote compliance with the tax laws and effective tax administration.” The
penalty cannot be rescinded with respect to a listed transaction.
                                                                                                           Page 9
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed



To determine if examiners were properly following procedures, we reviewed a sample of
assessed §6707A penalties. During our sample selection and review of case files, we identified
the following issues:
     •   Justifications for penalties were missing.
     •   Audit evidence was not always sufficient.
     •   Notifications to taxpayers were not always proper.
     •   Management approvals and power of attorney forms were missing.
     •   Procedures were not always sufficient or formalized.

Justifications for penalties were missing
Through the IRS’s Integrated Data Retrieval System, we ordered all 270 §6707A penalty files
closed as of June 30, 2009, by using the Document Locator Number for the corresponding
penalty assessment.21 Our plan was to select a sample from this population; however, we
determined 90 (33 percent) of the 270 penalty files could not be reviewed because the
examiners’ justifications for the penalties were missing from the files.
Procedures instruct examiners to justify the §6707A penalty by explaining the category of the
reportable transaction, giving a description and facts of the transaction, explaining the
examiner’s rationale for concluding that the taxpayer participated in a reportable transaction, and
stating whether the taxpayer filed a Form 8886 (usually found on Explanation of Items (Form
886-A) or similar form). Without this documentation in the penalty file, the evidence supporting
the §6707A penalties was not available.

Audit evidence was not always sufficient
When tax returns are filed by taxpayers, many of the forms are transcribed into IRS systems for
later viewing. However, Forms 8886 are not. Without viewing the original tax return22 or
applicable amended tax return,23 there is no way to determine if the Form 8886 was attached to
the return. Procedures require examiners to order the original tax return and determine whether a
disclosure was filed with the return.




21
   §6707A penalty assessments are posted on IRS master file systems with Transaction Code 240 with Reference
Code 648.
22
   The original tax return is the first tax return filed for the tax year.
23
   Filing an amended return with a disclosure will not cure the failure to file a disclosure with the original return
unless the amended return is filed before the due date of the original return (whether extended or not).
                                                                                                               Page 10
                               Penalty Cases for Failure to Disclose Reportable
                               Transactions Were Not Always Fully Developed



Our review of 114 of the remaining, reviewable penalties24 showed 61 (54 percent) did not
contain a copy of the original tax return or any documentation explaining how the examiner
determined the Form 8886 was not filed with the taxpayer’s return. Without this documentation
in the penalty file, examiners’ statements that taxpayers did not file the Form 8886 disclosures,
as required, do not have adequate support.

Notifications to taxpayers were not always proper
Examiners are normally required to notify taxpayers of tax deficiencies that will be assessed.
The examiners must inform taxpayers of their right to appeal in closing discussions and by
issuing a 30-day letter.25 For taxpayers who do not respond to the 30-day letter, a statutory
notice of deficiency is required.26 However, because the §6707A penalty is not subject to tax
deficiency rules (including the requirement to issue a statutory notice of deficiency), the Tax
Court generally does not have jurisdiction to review it. Procedures state that in general, a 30-day
letter should be issued with at least 6 months remaining on the statute of limitations to allow the
taxpayer time to appeal. In addition, the penalty may be assessed before a taxpayer is granted
Appeals consideration under certain conditions, such as when the expiration of the period of
limitations is imminent and consent to extend that period has not been secured. In these cases,
procedures instruct the examiner to assess the penalty, document the file, and inform the
taxpayer of the right to appeal.
In 15 (13 percent) of the 114 penalties reviewed, we did not find documentation citing
discussions or any written notifications to taxpayers of decisions to assess the penalty, or their
right to appeal. In addition, we found documentation was incomplete. The incomplete
documentation could have confused taxpayers about the actual penalty amounts. For example, if
the penalty is being assessed for an S Corporation and the related owner, there would be two
penalties which would require a notification letter to the S Corporation and to the related owner.
However, in some cases, notification letters to taxpayers were mailed only to the S Corporation
and not to the owner. In addition, the attached correspondence showed the penalty amount for
only the S Corporation and, therefore, the related owner would not be informed of the penalty on
his or her individual account. In another example, if the penalty was going to be assessed on an
individual for 2 tax years, the 30-day letter sent to the taxpayer included only a notice of



24
   We chose our sample from 153 of 270 assessed penalties as of June 30, 2009, after we determined that 90 of the
270 penalties were not reviewable due to a lack of documentation in the case files and 27 penalties were not
reviewable because the case files were never received.
25
   The 30-day letter (L-4143) accompanies a report giving a computation of the proposed adjustments to the tax
return and informs the taxpayers of the courses of action to take if they do not agree with the proposed adjustments.
It also instructs taxpayers they have 30 days from the date of the letter in order to appeal the proposed adjustments
with the Office of Appeals.
26
   The Statutory Notice of Deficiency is required by law. This notice provides the taxpayer with his or her right to
petition the United States Tax Court if he or she disagrees with the deficiency.
                                                                                                            Page 11
                           Penalty Cases for Failure to Disclose Reportable
                           Transactions Were Not Always Fully Developed



assessment for 1 tax year. Without properly notifying taxpayers of penalty assessments and their
right to appeal, taxpayer rights were potentially violated in these 15 cases.

Management approvals and power of attorney forms were missing
Because the §6707A penalty has no reasonable cause or other good faith exception, the IRS
developed a comprehensive approval process for the §6707A penalty. Figure 4 shows these
procedures which are intended to ensure consistent and fair treatment of taxpayers.
               Figure 4: Flowchart of §6707A Penalty Approval Process




       Source: Our analysis of §6707A processing procedures.

Notwithstanding the requirement for these levels of managerial approval, we identified
12 (11 percent) of 114 penalties that did not have signed approval documents in the case files.
For 4 of the 12 penalties, there were related taxpayers who received the §6707A penalty on the
same reportable transaction, and the case files for those related taxpayers had signed approval
documents. However, the approval documents and their associated examiner’s reports did not
reference the penalties that were assessed on the four cases without approval documents.
Procedures also require that if a taxpayer’s representative is to be included in correspondence or
discussions of the §6707A penalty, a revised Power of Attorney and Declaration of
Representative (Form 2848) is necessary. The revised Form must include the language, “Income
Taxes and Civil Penalties.” This revised Form helps to ensure IRS employees do not give
protected taxpayer information to unauthorized third parties. Our case review showed
19 (17 percent) of 114 penalties did not have a Form 2848 in the case file even though there was
correspondence with the taxpayer’s representative.

                                                                                          Page 12
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



Further analysis of these cases showed:
   •   15 of the 19 penalties had an indicator on IRS computer systems that would have alerted
       the examiner that the taxpayer had an authorized representative.
   •   4 of the 19 penalties had no indicators on IRS computer systems that would have alerted
       examiners that the taxpayer had an authorized representative.
If the §6707A penalty is not being properly approved or power of attorney forms are not
obtained from taxpayer’s representatives, the IRS may not be able to ensure examiner decisions
are appropriate, taxpayers are receiving fair treatment, and taxpayer information is being
protected.
IRS management informed us that our review has made them aware there are some problems
with the physical handling of the case files. They believe the documentation in many of the case
files was complete at one time. They explained one reason may be the §6707A penalty appeals
process is different than regular tax return examinations. Normally, when a taxpayer requests an
appeal, the examination would be closed and the case file would be forwarded to Appeals.
Appeals would then be responsible for the case file and for obtaining any extensions on expiring
statutes of limitations from taxpayers during the appeal investigation. However, for §6707A
penalties, although the case file is sent to Appeals, the case remains open in the Examination
function and the examiner, not Appeals, is responsible for obtaining extensions from the
taxpayer on expiring statutes. After the file comes back from Appeals, which may take a year or
more, the penalty either is assessed or not, depending on Appeals’ decision. The case is then
closed and the penalty file is sent to the Cincinnati (SB/SE or TE/GE Division cases) or Ogden
(LMSB Division cases) Campus for filing. IRS management believes documents may be getting
lost during the time in Appeals or after they are sent to the Cincinnati or Ogden Campus for
filing.
Notably, the TE/GE Division handles the appeals process differently than the SB/SE and LMSB
Division Examination functions by requiring a review by a mandatory review office. The
mandatory review office sends the original penalty file to Appeals, but keeps a full copy to make
it easier to obtain statute extensions, as needed. For all cases, the TE/GE Division sends the
assessment documents to the Cincinnati Campus to be processed. After the assessment has
posted and a Document Locator Number is assigned, the TE/GE Division sends the entire
penalty case file to the Cincinnati Campus so it may be associated with the assessment
documents. There is some evidence that documents may be getting lost or separated after TE/GE
Division files are sent to the Cincinnati Campus for these purposes. TE/GE Division examiners
worked 14 of the 114 penalties we reviewed where documentation was missing from the case
file. Although the case files had missing documents, management was able to provide complete
copies of the original case files that were maintained by the mandatory review office that
controlled the cases. They could not explain why the original files at the Cincinnati Campus did
not contain all of the documentation.

                                                                                         Page 13
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



Procedures were not always sufficient or formalized
IRS management and employees rely on formalized, written procedures to ensure proper
handling and consistent treatment of taxpayers. In addition, written procedures help to ensure
consistency when the organization experiences changes to personnel, such as retirements,
reassignments, and reorganizations. Our review of the procedures for §6707A penalties
identified some weaknesses that could cause confusion and/or inconsistent processing of the
penalties. Specifically, management should address procedural weaknesses related to:
   •   Opening an investigation.
   •   Assessing a penalty.
   •   Maintaining documentation in the case files.
   •   Formalizing procedures in the Internal Revenue Manual (IRM).
When a §6707A penalty investigation is opened, the examiner should notify the taxpayer of the
impending examination. Normally, the taxpayers are notified by the examiner who sends an
opening letter to the taxpayer. However, our case review identified 22 (19 percent) of
114 penalties which did not contain an opening letter to the taxpayer in the case file or
documentation on how the taxpayer was notified. IRS management informed us that opening
letters for §6707A penalty examinations were not required in these cases because a tax return
examination was already in process and examiners would notify the taxpayer about the §6707A
examination during the tax return examination. Although the majority of penalties we reviewed
did have underlying tax return examinations, the procedures should be clarified to ensure
examiners properly notify taxpayers. The current procedures do not clarify when an opening
letter to the taxpayer is required to be used and when other forms of notification and
documentation are acceptable.
When assessing the penalty, examiners should send an Assessment and Abatement of
Miscellaneous Civil Penalties (Form 8278) with attachments to the OTSA for listed transaction
penalties. This procedure was developed because the OTSA is responsible for notifying the
Securities and Exchange Commission of a §6707A penalty assessment for taxpayers who have a
Securities and Exchange Commission filing requirement. However, our case review identified
91 (80 percent) of 114 penalties that did not have evidence showing that the assessment
documents were sent to the OTSA. Management explained these procedures were eliminated for
SB/SE Division examiners because most small businesses and owners do not have the Securities
and Exchange Commission filing requirement. However, the procedures were never updated to
explain for whom and when it is necessary to send the Form 8278 to the OTSA. LMSB Division
examiners are still required to send the Form 8278 because of the possibility of a Securities and
Exchange Commission filing requirement.
In addition, procedures for processing the §6707A penalty were never formally published in the
IRM. The penalty was effective on October 23, 2004, and interim processing and technical
                                                                                         Page 14
                          Penalty Cases for Failure to Disclose Reportable
                          Transactions Were Not Always Fully Developed



guidance was issued to employees on July 31, 2006, by the Commissioners of the SB/SE,
LMSB, and TE/GE Divisions and Chief of Appeals. This interim guidance was updated on
September 5, 2008, for SB/SE and LMSB Division examiners. The TE/GE Division and Office
of Appeals issued separate interim guidance subsequent to the issuance of the original
July 31, 2006, guidance. Although the SB/SE Division noted the updated guidance would be
incorporated into the IRM by August 25, 2009, it had not been completed as of June 2010.
Some SB/SE and LMSB Division examiners and group managers informed us that the
procedures were not clear about what is required to be in the case file and to what extent the
§6707A penalty case should be developed. Both SB/SE and LMSB Division examiners had to
search the SB/SE Division Abusive Transaction web site for procedures and contact technical
advisors to get more instructions on how to follow the procedures. This situation may have
contributed to the number of cases in our sample that had missing or incomplete documents. IRS
management informed us that procedures have not been further updated or incorporated into the
IRM because of the pending Congressional action on the penalty. However, the penalty has been
in effect since CY 2004 (approximately 6 years have passed). We believe the IRS should
publish the guidance to help address some of the problems we have identified. If §6707A
penalty processing procedures are not sufficient or up-to-date, examiners may continue to
experience problems and there is a higher risk for inconsistent treatment of taxpayers.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Revise procedures to ensure that §6707A penalty cases are fully
supported and required documents are maintained in the case files.
       Management’s Response: IRS management agreed with this recommendation.
       They will update the procedures to ensure that proper documentation is maintained in the
       penalty case files to reflect the elimination of certain procedures in specific situations, to
       clarify the limited application of certain procedures, and to implement the recent
       amendment to penalty calculation.
       However, IRS management disagreed with the outcome measures we reported. Although
       management agreed that failing to issue a 30-day letter (which includes information about
       Appeal rights) or a notification of assessment and failing to obtain a proper power of
       attorney form would be improper, management believes the missing documentation
       reflects a case-closing problem rather than a case development problem.
       Office of Audit Comment: The Treasury Inspector General for Tax Administration
       continues to believe the outcome measure of 19 cases where taxpayer rights were
       potentially violated is reasonable. The IRS has not provided evidence that SB/SE and


                                                                                             Page 15
                          Penalty Cases for Failure to Disclose Reportable
                          Transactions Were Not Always Fully Developed



       LMSB Division penalty cases have a case-closing problem rather than a case
       development problem.
Recommendation 2: Formalize §6707A penalty procedures in the IRM to reflect changes in
procedures, technical guidance, and amendment to the penalty.
       Management’s Response: IRS management agreed with this recommendation.
       They will update the IRM with revised procedures and technical guidance to implement
       the amendment to the §6707A penalty and to reflect other changes in case handling.

Some Processes That Require Coordination Between the Office of Tax
Shelter Analysis and Other Functions Need Improvement
Responsibility for identifying, developing, and assessing the §6707A penalty involves a
coordination of efforts among employees from the SB/SE, LMSB, and TE/GE Divisions, Office
of Appeals, and Office of Chief Counsel. Cross-divisional discussions are often required for
various activities such as effective processing and dissemination of Form 8886 disclosures,
proper development and updating of procedures, coordination of taxpayer appeals, and timely
assistance to field examiners.
In February 2000, the OTSA was created to serve as the focal point for efforts to gather and
analyze information relating to tax shelter activity, and to coordinate appropriate responses. One
of its primary responsibilities is to review, analyze, disseminate, and report on the Forms 8886 it
receives each year. When a taxpayer files the first Form 8886 to disclose a reportable
transaction, a duplicate copy must be sent to the OTSA. During discussions with IRS
management and our review of 114 assessed §6707A penalties, we identified instances in which
the coordination between the OTSA and other functions needed improvement. Specifically,
improvements are needed when:
   •   Identifying and assessing penalties on incomplete Forms 8886.
   •   Verifying Forms 8886 were filed with the OTSA.

§6707A penalties are not being assessed on incomplete Forms 8886
When a taxpayer files a Form 8886, it must include sufficient information for the IRS to
understand the reportable transaction. If disclosures are not completed in accordance with the
law and the instructions to the Form, the taxpayer is considered noncompliant with the disclosure
requirements. The OTSA is responsible for identifying potentially incomplete Form 8886
disclosures for all taxpayers; however, the OTSA coordinates with the Abusive Transaction
Support Unit for SB/SE Division or Wage and Investment Division taxpayers.
The OTSA reviews all Forms 8886 for initial completeness and sends potential incomplete
disclosures, related to taxpayers currently under examination, to an LMSB Division examination

                                                                                           Page 16
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



team for determination of completeness. For any remaining potentially incomplete disclosures,
the OTSA makes contact with the taxpayer using the Incomplete Form 8886 Letter (Letter 4146),
which asks for more information concerning the disclosed transaction. After reviewing any
additional information provided by the taxpayer and discussions with the Office of Chief
Counsel, the OTSA notifies the appropriate examination teams for possible assignment on
remaining incomplete disclosures. The assigned examination teams, through consultations with
field Counsel, then determine the value of any additional information provided by the taxpayer
and whether the disclosure is complete.
In CY 2006, the OTSA identified 160 incomplete Form 8886 disclosures. After more in-depth
research, the OTSA identified 70 potentially incomplete disclosures and sent Letters 4146 to
these taxpayers for more information on the transactions. Based on the subsequent information
received from taxpayers, the OTSA determined the following:
   •   43 disclosures did not have a §6707A filing requirement or were determined to be
       complete.
   •   8 disclosures were determined to be “most likely” complete after discussions with
       taxpayers.
   •   5 disclosures where the filing requirement was “questionable” after discussions with
       taxpayers.
   •   9 disclosures involved taxpayers who did not respond to the first or second Letter 4146.
       Penalties were not pursued for these taxpayers because the assessment statutes were close
       to expiring and/or Counsel determined the disclosures were complete.
   •   5 disclosures where OTSA Special Counsel to the Office of Chief Counsel agreed they
       were incomplete. The OTSA sent these disclosures to LMSB Division field examination
       for §6707A penalty consideration, which agreed to work four of these cases. Examiners
       contacted their local field Counsel who in turn contacted National Office to the Office of
       Chief Counsel which reviewed the facts of the cases and determined the disclosures were,
       in fact, complete.
The OTSA did not perform an analysis on the incomplete Form 8886 disclosures in CY 2007
because of processing problems that failed to identify the incomplete disclosures. However, in
CY 2008, the OTSA identified 76 incomplete Form 8886 disclosures with no associated open
examination, and Letters 4146 were sent to these taxpayers for more information. Based on
subsequent information received from taxpayers, the OTSA determined the following:
   •   36 disclosures did not have a §6707A filing requirement.
   •   27 disclosures are currently under further evaluation by the OTSA, and it is expected that
       most of these disclosures will be sent to the field for potential §6707A penalty
       examinations.

                                                                                           Page 17
                          Penalty Cases for Failure to Disclose Reportable
                          Transactions Were Not Always Fully Developed



   •   9 disclosures involved taxpayers who did not respond to the first or second Letter 4146,
       and the OTSA is considering what additional actions should be taken.
   •   4 disclosures had additional issues and were sent to the field for an income and penalty
       examination.
In our analysis on the incomplete disclosures sent to the field, we determined there were no
§6707A penalty examinations opened or penalties assessed. There is a risk that these large
companies will continue to participate in abusive tax transactions and not be penalized for
incomplete disclosure.
OTSA management explained they are following the legal guidelines and Form 8886 disclosure
instructions, but it is ultimately up to field examiners to make the final determination whether
disclosures are required and incomplete. In addition, the §6707A penalty investigation is not
mandatory work for LMSB Division field examination.

Examiners did not verify that Forms 8886 were filed with the OTSA
Development of the §6707A penalty requires evidence that taxpayers did not file the Form 8886
as required. In some cases, a taxpayer may have filed the Form 8886 disclosure for a reportable
transaction with his or her underlying tax return for the first time, but failed to send a duplicate
copy to the OTSA as required. In these cases, the penalty can still be assessed. Procedures
instruct examiners to verify with the OTSA whether or not a Form 8886 disclosure is on file.
However, our case review showed that examiners did follow this procedure in 67 (59 percent) of
114 cases.
IRS management informed us that once examiners determine the Form 8886 has not been filed
with the underlying tax return, they have enough evidence to assess the penalty and there is no
need to follow through and verify whether the OTSA has a disclosure on file. However, the
requirement to verify whether the Form 8886 was filed with the OTSA should not be limited to
compiling evidence for assessing penalties. The OTSA is the central clearinghouse for all tax
shelter activity affecting the LMSB, SB/SE, and TE/GE Divisions. Their responsibilities include
review, analysis, dissemination, and reporting on disclosures and registrations required by law to
aid in the identification and development of emerging tax shelters. If examiners do not follow
through to verify the OTSA has a Form 8886 on file for these taxpayers, the OTSA may not be
aware of all the types of taxpayers and reportable transactions identified by the examiners.




                                                                                            Page 18
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 3: Ensure that incomplete Form 8886 disclosures are properly reviewed
for potential §6707A penalty examinations.
       Management’s Response: IRS management agreed with this recommendation. The
       OTSA will establish procedures for tracking the disposition of potentially incomplete
       Form 8886 disclosures associated with all taxpayers with ongoing examinations, as well
       as examinations that may originate to determine the completeness of information on the
       Form 8886 and potential §6707A penalty.
Recommendation 4: Revise procedures to clarify conditions that require examiners to
contact the OTSA to confirm if the Form 8886 disclosure is on file.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Pre-Filing and Technical Guidance, LMSB Division, will revise and publish the
       conditions under which examiners are required to contact the OTSA to confirm if the
       Form 8886 is on file.

The Office of Tax Shelter Analysis Does Not Have Formal Processing
Procedures for Form 8886
Internal control standards require that agencies establish control activities that ensure
management’s directives are enforced and carried out. Written procedures help define control
activities and help ensure consistency in day-to-day operational activities. The LMSB Division’s
OTSA is responsible for reviewing, analyzing, disseminating, and reporting on Forms 8886.
Although the OTSA processes approximately 50,000 to 80,000 disclosures each year, there is no
published IRM guidance explaining these procedures. We observed the entire process, which
was lengthy and comprised of various detailed tasks. For example, the OTSA is responsible for:
   •   Separating Forms 8886 into categories of taxpayers and types of transactions.
   •   Preparing Forms 8886 into batches.
   •   Scanning Forms 8886 by batch.
   •   Verifying the integrity of scanned Form 8886 data in the database.
   •   Identifying and processing incomplete Forms 8886.
   •   Disseminating Forms 8886 to the other functions.
The OTSA management informed us procedures were not formalized because the process was
still being developed and refined, and that responsible employees understand the process.

                                                                                        Page 19
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed



However, procedures need to be written and published in the IRM so management can ensure the
process is being performed properly and effectively. Also, future employees need to have formal
guidelines to follow to provide consistency during employee turnover and for training new
employees.
Formal procedures are important because informal or interim procedures may not be readily
available or adequately disseminated. Notably, in December 2009, we requested copies of any
informal or interim written procedures and OTSA managers advised us that they did not have
any. After our request, management drafted interim procedures and provided them to us at a
later date. However, during our closing meeting, we were advised that informal interim
procedures were written and implemented in September 2008 (before we began our review).
Since OTSA managers had advised us that they did not have interim procedures in
December 2009, it appears that some managers were not aware that these procedures were
available. Formal procedures reduce the risk of this kind of miscommunication.
Recommendation 5: The Director, Pre-Filing and Technical Guidance, LMSB Division,
should formalize the OTSA procedures for processing Forms 8886.
       Management’s Response: IRS management agreed with this recommendation.
       Although the OTSA has had internal desk procedures for the processing of Form 8886,
       they have not been formally published. The OTSA will take action to formally publish
       the Form 8886 disclosure processing procedures in the IRM.




                                                                                       Page 20
                             Penalty Cases for Failure to Disclose Reportable
                             Transactions Were Not Always Fully Developed



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’s effectiveness in identifying,
developing, and applying I.R.C. §6707A penalties. To accomplish our objective, we:
I.      Determined whether the IRS effectively identified potential violations of the requirement
        to file Reportable Transaction Disclosure Statement (Form 8886).
        A. Reviewed IRM guidelines and discussed with IRS management the procedures and
           controls used in the identification process, which IRS functions are involved, and
           what each function is required to do. We held discussions with the LMSB Division’s1
           OTSA2 and SB/SE Division’s Office of Abusive Transactions and Field Examination
           function.
        B. Determined the steps that the OTSA and other functions take to resolve incomplete
           Forms 8886.
            1. Discussed and performed a walkthrough of the incomplete Forms 8886 processing
               program, which included incomplete Forms 8886 identification with OTSA
               management in Ogden, Utah.
            2. Obtained Form 8886 data from the OTSA database for Tax Years 2004 to 2008.
II.     Determined whether the SB/SE Division Examination function is properly developing
        cases and assessing §6707A penalties.
        A. Reviewed IRM guidelines and discussed with SB/SE Division Examination function
           management the procedures and controls used for case development, assessment, and
           rescission of the §6707A penalty.
            1. Determined whether there was a lack of coordination between the OTSA and other
               IRS functions with regard to the §6707A penalty. We discussed coordination with
               the OTSA; LMSB, TE/GE, and SB/SE Division Examination functions; Office of
               Appeals; Office of Chief Counsel; and Taxpayer Advocate Service.
            2. Determined why the IRM for §6707A penalty processing procedures had not been
               completed.


1
  Effective October 1, 2010, the IRS’s LMSB Division’s name was changed to the Large Business and International
Division.
2
  See Appendix X for a glossary of terms.
                                                                                                      Page 21
                              Penalty Cases for Failure to Disclose Reportable
                              Transactions Were Not Always Fully Developed



             3. Determined why the §6707A penalty is affecting small businesses much more than
                large and mid-size businesses. We discussed this issue with the OTSA; LMSB and
                SB/SE Division Examination function management; and the Office of Chief
                Counsel.
        B. Selected a judgmental sample of 114 §6707A penalties for review that were assessed
           between October 23, 2004, and June 30, 2009. The sample was chosen from a
           population of 153 assessed penalties.3 To choose the sample, the Special Handling
           Notice for Examination Case Processing (Form 3198) was reviewed for the
           153 penalty case files to determine whether there were any related tax years or
           entities being assessed the §6707A penalty. If a penalty had related tax periods or
           entities with penalties, they were grouped together and all penalties were reviewed.
           In addition, some individual penalties were randomly selected from those that did not
           have related tax years or entities.
        C. Reviewed sample cases to determine if controls and procedures were properly
           followed including:
             1. Whether the case was developed and evidence was sufficient to assess the
                penalty.
             2. Whether proper management approvals were obtained for assessments.
             3. Compared the tax benefits realized by the taxpayer versus the amount of the §6707A
                penalties assessed.
             4. Determined if the §6707A penalty was reduced by Appeals and why.
             5. Considered the potential for fraud as cases were reviewed.
        D. Discussed the case review results with SB/SE, LMSB, and TE/GE Division management
           and obtained agreement or disagreement with conclusions.
III.    Analyzed §6707A penalty data, including open and closed cases, for trends. Closed data
        were compiled through the IMF and BMF systems, and open data were collected through
        analysis of the Exam Return Control System and Audit Information Management System
        in the Treasury Inspector General for Tax Administration Data Center Warehouse as of
        December 31, 2009.
        A. For closed cases:
             1. Determined by tax period the number and dollar amounts of the §6707A penalties.


3
  We chose our sample from 153 of 270 assessed penalties as of June 30, 2009, after we determined that 90 of the
270 penalties were not reviewable due to a lack of documentation in the case files and 27 penalties were not
reviewable because cases files were never received.
                                                                                                          Page 22
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



           2. Determined by business units the breakdown for the totals in Step III A.1.
           3. Evaluated the types of taxpayers affected by the §6707A penalties.
       B. For open cases:
           1. Determined the number of open cases as of December 31, 2009.
           2. Determined by business units where the cases are located.
           3. Determined the time periods the cases have been opened.
       C. Determined whether the SB/SE Division Collection function had stopped collection
          actions after July 7, 2009, on §6707A penalty cases. Specifically, we compared the
          open and closed §6707A penalty Master File data to Integrated Collection System and
          Automated Collection System data to determine whether:
              •   Collection notices were sent to taxpayers as of May 5, 2010.
              •   Liens were filed as of December 31, 2009.
              •   Interest was assessed as of April 19, 2010.
              •   Subsequent payments on §6707A liabilities were made as of April 30, 2010.
              •   Levies were issued as of April 3, 2010.
IV.    Validated data from the IMF and BMF Systems, Exam Return Control System, Audit
       Information Management System, Integrated Collection System, and Automated
       Collection Systems by relying on Treasury Inspector General for Tax Administration
       Data Center Warehouse site procedures that ensure that data received from the IRS are
       valid. The Data Center Warehouse performs various procedures to ensure that it receives
       all the records in the IRS databases. Auditors also compared the open and closed §6707A
       data with data and reports received from the IRS as part of the data validation process.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, and practices
used by the LMSB, SB/SE, and TE/GE Division Examination functions; LMSB Pre-Filing and
Technical Guidance function; Office of Appeals; and Office of Chief Counsel as they relate to
identifying, developing, assessing, and appealing the §6707A penalty and processing
Forms 8886. We evaluated these controls by reviewing applicable manuals and documentation,
interviewing management from these functions, and reviewing a judgmental sample of assessed
§6707A penalty case files.
                                                                                           Page 23
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Lynn Wofchuck, Audit Manager
Mike Della Ripa, Senior Auditor
Michele Strong, Senior Auditor
Jonathan Lloyd, Auditor




                                                                                      Page 24
                       Penalty Cases for Failure to Disclose Reportable
                       Transactions Were Not Always Fully Developed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large Business and International Division SE:LB:FS
Director, Pre-Filing and Technical Guidance SE:LM:PFTG
Director, Communication and Liaison, Large Business and International Division SE:LB:M:CL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Chief, Appeals AP
       Commissioner, Large Business and International Division SE:LB:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:TP:SS




                                                                                  Page 25
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measures:
•   Taxpayer Rights – Potential; 15 cases where taxpayers did not receive proper notification of
    assessments and/or the right to appeal (see page 9).

Methodology Used to Measure the Reported Benefit:
We identified 15 cases where taxpayers did not receive proper notification of assessments and/or
the right to appeal. The cases were identified during our review of processing procedures for
114 I.R.C. §6707A penalties. There is no projection because the sample was a judgmental
sample.
Type and Value of Outcome Measures:
•   Taxpayer Rights – Potential; four cases where Power of Attorney and Declaration of
    Representative (Form 2848) was not received when there was correspondence with
    taxpayers’ representatives (see page 9).

Methodology Used to Measure the Reported Benefit:
We identified four cases where the Form 2848 was not received when there was correspondence
with taxpayers’ representatives. The cases were identified during our review of processing
procedures for 114 I.R.C. §6707A penalties. There is no projection because the sample was a
judgmental sample.




                                                                                          Page 26
                    Penalty Cases for Failure to Disclose Reportable
                    Transactions Were Not Always Fully Developed



                                                                                    Appendix V

    Individual Master File and Business Master File
      Notices Sent to Taxpayers After Suspension
           of Collection Enforcement Actions

 Notice Number                                Name/Description                                    Count
CP215 (BMF)      Civil Penalty Assessment – This notice is issued to notify the taxpayer a             22
                 civil penalty was assessed (statutory requirement).
CP015 (IMF)      Civil Penalties Notice – This notice is issued to notify the taxpayer a civil         15
                 penalty was assessed and why it was assessed (statutory requirement).
CP128 (BMF)      Balance Due After Offset – This notice is issued to notify the taxpayer of a          25
                 remaining balance due on a tax module after an incoming offset.
CP039 (IMF)      Overpayment Applied to Balance Due - Secondary SSN – This notice is                   4
                 issued to notify the taxpayer that an overpayment for a return, which the
                 taxpayer is the secondary Social Security number, has been applied to the
                 balance due on a joint return for another year.
CP049 (IMF)      Overpayment Adjustment-Offset – This notice is issued to notify the              **1**
                 taxpayer the overpayment on an individual return was applied to a prior
                 year’s unpaid liability.
CP021 (IMF)      Notice of Data Processing Adjustment or Examination – This notice is             **1**
                 issued to inform the taxpayer that an adjustment was made to the tax
                 module.
CP210 (BMF)      Audit/Data Processing Tax Adjustment – This notice is issued to notify the       **1**
                 taxpayer of an Examination or Data Processing tax adjustment notice,
                 resulting in overpayment of $1.00 or more or a zero balance. It is also
                 issued as a return settlement notice when penalties are assessed on overpaid
                 modules.
CP220 (BMF)      Audit/Data Processing Adjustment – This notice is issued to notify the           **1**
                 taxpayer of an Examination and Data Processing tax adjustment resulting in
                 a balance due of $1.00 or more.
CP503 (IMF)      Individual Master File 2nd Notice - Balance Due – This notice is issued to       **1**
                 notify the taxpayer that immediate action is required because no contact was
                 received from previous notices and that the balance is still pending.



                                                                                             Page 27
                            Penalty Cases for Failure to Disclose Reportable
                            Transactions Were Not Always Fully Developed




  Notice Number                                       Name/Description                                    Count
 CP504 (BMF and          Final Notice - Balance Due – This is the final notice to the taxpayer when             35
 IMF)                    payment has not been made, and a levy will be placed on certain assets.
 CP504B (BMF)            Final Notice - Balance Due – This notice is issued specifically to a BMF               4
                         taxpayer when a new CP504 is requested.
 CP090 (IMF)             Final Notice of Intent to Levy and Notice of Your Right to a Hearing – This            6
                         notice is issued to inform the taxpayer of the IRS’s intent to levy on certain
                         assets.
 CP297 (BMF)             Notice of Intent to Levy and Notice of Your Right to a Hearing – This            **1**
                         notice is issued to notify the taxpayer of the IRS’s intent to levy and of the
                         taxpayer’s right to a hearing.
 Total Count                                                                                                   119
Source: Our analysis of IMF and BMF taxpayers’ accounts on the Integrated Data Retrieval System.




                                                                                                     Page 28
                          Penalty Cases for Failure to Disclose Reportable
                          Transactions Were Not Always Fully Developed



                                                                                 Appendix VI

     Second Request Notice – Balance Due (CP 503)


                                        IMPORTANT!!
                                  Immediate action is required.


We previously wrote to you about your unpaid account, but you haven’t contacted us about it.
Penalties and interest on the unpaid balance are continuing to increase. Please pay the amount
you owe within ten days from the date of this notice. If you can’t pay now, call us at the number
shown below. You may be qualified for an installment agreement or payroll deduction
agreement. We want to help you resolve this bill. However, if we don’t hear from you, we will
have no choice but to proceed with steps required to collect the amount you owe.


If you already paid your balance in full or arranged for an installment agreement, please
disregard this notice.


                                             Account Summary
                                     Tax Period: {date}
Form: {form number}


Current Balance: {$ amount}
Includes:
   Penalty: {$ amount}
   Interest: {$ amount}
   Last Payment: {$ amount}




                                                                                            Page 29
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed



                                                                                 Appendix VII

                Final Notice – Balance Due (CP 504)


                                            Urgent!!
                   We intend to levy on certain assets. Please respond NOW.




Our records indicate that you haven’t paid the amount you owe. The law requires that you pay
your tax at the time you file your return. This is your notice, as required by Internal Revenue
Code Section 6331(d), of our intent to levy (take) any state tax refunds that you may be entitled
to if we don’t receive your payment in full. In addition, we will begin to search for other assets
we may levy. We can also file a Notice of Federal Tax Lien, if we haven’t already done so. To
prevent collection action, please pay the current balance now. If you’ve already paid, can’t pay,
or have arranged for an installment agreement, it is important that you call us immediately at the
telephone number show below.




                                      Account Summary
                                      Tax Period: {date}
Form: {form number}
Current Balance: {$ amount}
Includes:
Penalty: {$ amount}
Interest: {$ amount}
Last Payment: {$ amount}




                                                                                           Page 30
                                  Penalty Cases for Failure to Disclose Reportable
                                  Transactions Were Not Always Fully Developed



                                                                                                          Appendix VIII

               Final Notice of Intent to Levy and Notice
                  of Your Right to a Hearing (CP 90)

                                                  Please Respond Immediately

We previously asked you to pay the federal tax shown on the next page, but we haven’t received your payment. This letter is
your notice of our intent to levy under Internal Revenue Code (IRC) Section 6331 and your right to appeal under IRC Section
6330.

We may also file a Notice of Federal Tax Lien at any time to protect the government’s interest. A lien is a public notice to your
creditors that the government has a right to your current assets, including any assets you acquire after we file the lien.

If you don’t pay the amount you owe, make alternative arrangements to pay, or request an appeals hearing within 30 days from
the date of this letter, we may take your property, or rights to property. Property includes real estate, automobiles, business
assets, bank accounts, wages, commissions, social security benefits, and other income. We’ve enclosed Publication 594, which
has more information about our collection process; Publication 1660, which explains your appeal rights; and Form 12153, which
you can use to request a Collection Due Process hearing with our Appeals Office. To preserve your right to contest Appeals’
decision in the U.S. Tax Court, you must complete, sign, and return Form 12153 within 30 days from the date of this letter.

To prevent collection action, please send your full payment today.

     •     Make your check or money order payable to United States Treasury.

     •     Write your Social Security Number on your payment.

     •     Send your payment and the attached payment stub to us in the enclosed envelope. The amount you owe is
           shown on the next page.

If you have recently paid this tax or you can’t pay it, call us immediately at the above telephone number and let us know.

The assessed balance may include tax, penalties, and interest you still owe. It also includes any credits and payments we’ve
received since we sent our last notice to you. Penalty and interest charges continue to accrue until you pay the total amount in
full. We detail these charges, known as Statutory Additions, on the following pages.



Enclosures:

Copy of this notice

Pub 594, IRS Collection Process

Pub 1660, Collection Appeal Rights

Form 12153, Request for a Collection Due Process Hearing

Envelope


                                                                                                                         Page 31
                                 Penalty Cases for Failure to Disclose Reportable
                                 Transactions Were Not Always Fully Developed



                                                                                        Appendix IX

                            Internal Revenue Service’s
                           Record of Listed Transactions1

   Listed
                                                              Descriptions
Transactions
         01          Revenue Ruling 90-105 – Certain Accelerated Deductions for Contributions to a
                     Qualified Cash or Deferred Arrangement or Matching Contributions to a
                     Defined Contribution Plan
         02          Notice 95-34 – Voluntary Employee Beneficiary Association
         03          ASA Investering Partnership v. Commissioner – Transactions similar to that
                     described in the ASA Investering litigation and in ACM Partnership v.
                     Commissioner
         04          Treasury Regulation § 1.643(a)-8 – Certain Distributions from Charitable
                     Remainder Trusts
         05          Notice 99-59 – Corporate Distributions of Encumbered Property (also known as
                     BOSS)
         06          Step Down Preferred/Fast Pay Stock §1.7701(1)-3
         07          Revenue Ruling 2000-12 – Debt Straddles
         08          Notice 2000-44 – Inflated Partnership Basis Transactions (also known as Son of
                     BOSS)
         09          Notice 2000-60 Stock Compensation Stock Compensation Transactions
         10          Notice 2000-61 – Guam Trust
         11          Notice 2001-16 – Intermediary Transactions
         12          Notice 2001-17 – §351 Contingent Liability



1
    See the IRS.gov website for more detailed information on each listed transaction.
                                                                                             Page 32
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed




   Listed
                                                 Descriptions
Transactions
    13         Notice 2001- 45 – §302 Basis-Shifting Transactions
    14         Notice 2002-21 – Inflated Basis “Custom Adjustable Rate Debt” Transactions
    15         Notice 2002-35 – Notional Principal Contracts
    16         Common Trust Fund Straddles (Notice 2003-54), Pass-Through Entity Straddle
               (Notice 2002-50), and S Corporation Tax Shelter Transaction (Notice 2002-65)
    17         Revenue Ruling 2002-69 – Lease In / Lease Out Transactions
    18         Revenue Ruling 2003-6 – Abuses Associated with S Corp Employee Stock
               Ownership Plans
    19         Notice 2003-22 – Offshore Deferred Compensation Arrangements
    20         Notice 2003-24 – Certain Trust Arrangements Seeking to Qualify for Exception
               for Collectively Bargained Welfare Benefit Funds under § 419A(f)(5)
    21         Notice 2003-47 – Transfers of Compensatory Stock Options to Related Persons
    22         Notice 2003-55 – Accounting for Lease Strips and Other Stripping Transactions
    23         Notice 2003-77 – Improper use of contested liability trusts to attempt to
               accelerate deductions for contested liabilities under I.R.C. 461(f)
    24         Notice 2003-81 – Major/Minor Tax Avoidance Using Offsetting Foreign
               Currency Option Contracts
    25         Notice 2004-8 – Abusive Roth Individual Retirement Arrangement Transactions
    26         Revenue Ruling 2004-4 – S Corporations Employee Stock Ownership Plan
    27         Revenue Ruling 2004-20 – Abusive Transactions Involving Insurance Policies in
               I.R.C. 412(i) Retirement Plans
    28         Notice 2004-20 – Abusive Foreign Tax Credit Transactions
    29         Notice 2004-30 – S Corporation Tax Shelter Involving Shifting Income to Tax
               Exempt Organization
    30         Notice 2004-31 – Intercompany Financing Through Partnerships

                                                                                           Page 33
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed




   Listed
                                               Descriptions
Transactions
    31         Notice 2005-13 – Sale-In Lease-Out transactions
    32         Notice 2007-57 – Loss Importation Transaction
    33         Notice 2007-83 – Abusive Trust Arrangements Utilizing Cash Value Life
               Insurance Policies Purportedly to Provide Welfare Benefits
    34         Notice 2008-34 – Distressed Asset Trust Transaction




                                                                                   Page 34
                       Penalty Cases for Failure to Disclose Reportable
                       Transactions Were Not Always Fully Developed



                                                                                Appendix X

                            Glossary of Terms

         Term                                         Definition
Abusive Tax Shelter     Offers inflated tax savings which are disproportionately greater than
                        the actual investment placed at risk. It exists primarily to reduce
                        taxes unreasonably for tax avoidance or evasion, and is often
                        marketed in terms of how much can be written off in relation to how
                        much is invested.
Abusive Tax             Transactions or schemes that reduce tax liability by taking a tax
Transactions            position that is not supported by the Internal Revenue Code or by
                        manipulating the law in a way that is not consistent with its intent.
Abusive Transaction     The Abusive Transactions Support Unit was established to provide
Support Unit            support for the Abusive Transaction Program in the SB/SE Division.
American Jobs           This Act was enacted on October 22, 2004, and added §6707A to the
Creation Act of 2004    I.R.C. to provide a monetary penalty for failure to include on any
                        return or statement any information required to be disclosed under
                        I.R.C. §6011 with respect to a reportable transaction.
Audit Information       A computer system used by the SB/SE Division Examination
Management System       Operations function and others to control returns, input
                        assessments/adjustments to the Master File, and provide management
                        reports.
Automated Collection    A telephone contact system through which telephone assistors collect
System                  unpaid taxes and secure tax returns from delinquent taxpayers who
                        have not complied with previous notices.
Business Master File    The IRS database that consists of Federal tax-related transactions and
                        accounts for businesses. These include employment taxes, income
                        taxes on businesses, and excise taxes.
Business Operating      Represents the taxpayer’s responsible business unit.
Division Codes
Campus                  The data processing arm of the IRS. The campuses process paper and
                        electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer accounts.


                                                                                        Page 35
                         Penalty Cases for Failure to Disclose Reportable
                         Transactions Were Not Always Fully Developed




Data Center               A Treasury Inspector General for Tax Administration Office of
Warehouse                 Information Technology function that obtains and stores numerous
                          IRS data files and makes them available to auditors and investigators
                          via the Treasury Inspector General for Tax Administration Intranet.
Document Locator          A unique number assigned to every tax return to assist in controlling,
Number                    identifying, and locating the return.
Exam Return Control       An automated inventory management system used by field personnel
System                    in both the SB/SE and LMSB Divisions for controlling tax returns
                          and technical time charges from the time returns arrive until they are
                          closed on the Audit Information Management System.
Examination function      The IRS function that examines tax returns to determine whether
                          taxpayers accurately reported their tax liabilities.
Individual Master File    The IRS database that maintains transactions or records of individual
                          tax accounts.
Integrated Collection     An information management system designed to improve revenue
System                    collections by providing revenue officers access to the most current
                          taxpayer information, while in the field, using laptop computers for
                          quicker case resolution and improved customer service.
Integrated Data           IRS computer system capable of retrieving or updating stored
Retrieval System          information; it works in conjunction with a taxpayer’s account
                          records.
Levy                      A method used by the IRS to collect outstanding taxes from sources
                          such as bank accounts and wages.
Lien                      An encumbrance on property or rights to property as security for
                          outstanding taxes.
Listed Transaction        A transaction that is the same as or substantially similar to one of the
                          types of transactions that the IRS has determined to be a tax
                          avoidance transaction.
Master File               The IRS database that stores various types of taxpayer account
                          information. This database includes individual, business, and
                          employee plans and exempt organizations data.
Non-Listed                Transactions that need to be registered/reported because they have
Transaction               some characteristics of abusive shelters but were not, at least yet,
                          determined to be abusive.



                                                                                           Page 36
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed




Office of Appeals        An office of the IRS which is responsible for resolving tax
                         controversies, without litigation, on a basis which is fair and impartial
                         to both the Federal Government and the taxpayer in a manner that
                         will enhance voluntary compliance and public confidence in the
                         integrity and efficiency of the IRS.
Office of Tax Shelter    Serves as a clearinghouse for all tax shelter activity and information
Analysis                 affecting the LMSB, SB/SE, and TE/GE Divisions. Its
                         responsibilities include reviewing, analyzing, disseminating, and
                         reporting on disclosures and registrations required by law to aid in
                         the identification and development of emerging tax shelters.
Original Tax Return      The first tax return filed by the taxpayer for a tax year, not amended
                         returns.
Promoter                 A person who organizes or assists in the organization of a
                         partnership, trust, investment plan, or any other entity or arrangement
                         that is to be sold to a third party and is designed to be used, or is
                         actually used, by that third party in obtaining tax benefits not allowed
                         by the I.R.C.
Reasonable Cause         This is based on all the facts and circumstances in each situation and
                         allows the IRS to provide relief from a penalty that would otherwise
                         be assessed. Reasonable cause relief is generally granted when the
                         taxpayer exercises ordinary business care and prudence in
                         determining tax obligations but, nevertheless, is unable to comply
                         with those obligations.
Reportable               Any transaction with respect to which information is required to be
Transaction              included with a tax return or statement because, as determined under
                         regulations prescribed under I.R.C. §6011, such a transaction is of a
                         type which the Secretary of the Treasury determines as having
                         potential for tax avoidance or evasion.
Strict Liability         Sometimes called absolute liability, strict liability is the legal
                         responsibility for damages, or injury, even if the person found strictly
                         liable was not at fault or negligent.




                                                                                         Page 37
                        Penalty Cases for Failure to Disclose Reportable
                        Transactions Were Not Always Fully Developed




Substantially Similar    A transaction is substantially similar to another transaction if it is
                         expected to obtain the same or similar types of tax consequences and
                         is either factually similar or based on the same or similar tax strategy.
                         Receipt of an opinion regarding the tax consequences of the
                         transaction is not relevant to the determination of whether the
                         transaction is the same as or substantially similar to another
                         transaction. Further, the term substantially similar must be broadly
                         construed in favor of disclosure.
Tax Court                Generally, the Tax Court hears cases before any tax has been
                         assessed and paid; however, a taxpayer can pay the tax after the
                         notice of deficiency has been issued and still petition the Tax Court
                         for review.
Tax Period               Refers to each tax return filed by the taxpayer for a specific period
                         (year or quarter) during a calendar year for each type of tax.




                                                                                          Page 38
        Penalty Cases for Failure to Disclose Reportable
        Transactions Were Not Always Fully Developed



                                                   Appendix XI

Management’s Response to the Draft Report




                                                           Page 39
Penalty Cases for Failure to Disclose Reportable
Transactions Were Not Always Fully Developed




                                                   Page 40
Penalty Cases for Failure to Disclose Reportable
Transactions Were Not Always Fully Developed




                                                   Page 41
Penalty Cases for Failure to Disclose Reportable
Transactions Were Not Always Fully Developed




                                                   Page 42
Penalty Cases for Failure to Disclose Reportable
Transactions Were Not Always Fully Developed




                                                   Page 43
